FEDERAL TRADE COMMISSION

 OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS 



   October 1, 2005 - March 31, 2006





               Report #34
                                            UNITED STATES OF AMERICA
                                     FEDERAL TRADE COMMISSION
                                              WASHINGTON, D.C. 20580




Office of Inspector General


                                                    May 5, 2006



      The Honorable Deborah Majoras

      Chairman

      Federal Trade Commission

      600 Pennsylvania Avenue, N.W.

      Washington, D.C. 20580


      Dear Chairman Majoras:

              The attached report covers the Office of Inspector General's (OIG) activities for the first
      half of fiscal year 2006 and is submitted according to Section 5 of the Inspector General Act of
      1978, as amended.

               During the six-month reporting period ending March 31, 2006, the OIG issued an audit of
      the FTC’s FY 2005 financial statements and a companion report to management containing
      financial-related findings and recommendations resulting from the audit. The OIG also issued a
      review of performance activity pursuant to the Government Performance and Results Act.
      Finally the OIG audited cash management and claims distribution processes performed by one
      FTC contractor. In addition to these completed audits and reviews, the OIG began planning
      activities for an audit of the FTC’s purchase card program and the OIG’s annual security review
      mandated in the Federal Information Security Management Act.

              The OIG processed 66 consumer inquiries and complaints/allegations of possible
      wrongdoing during the period, opened seven new investigations into wrongdoing, and closed
      nine investigations. The results of these closed investigations were reported to management for
      ultimate disposition.

             The OIG issued a Management Advisory regarding weaknesses in ethics training for
      agency employees selected to serve as Contracting Officer’s Technical Representatives (COTRs).
      The OIG worked with the agency Ethics Office and Financial Management Office to revise the
      COTR Appointment Memorandum and the COTR Training Course to address this issue.
As in the past, management has been responsive in attempting to implement all OIG
recommendations. I appreciate management's support and I look forward to working with you in
our ongoing efforts to promote economy and efficiency in agency programs.


                                          Sincerely,



                                          Howard L. Sribnick
                                          Inspector General
                                      INTRODUCTION

        The Federal Trade Commission (FTC) seeks to assure that the nation’s markets are
competitive, efficient and free from undue restrictions. The FTC also seeks to improve the
operation of the marketplace by ending unfair and deceptive practices, with emphasis on those
practices that might unreasonably restrict or inhibit the free exercise of informed choice by
consumers. The FTC relies on economic analysis to support its law enforcement efforts and to
contribute to the economic policy deliberations of Congress, the Executive Branch and the
public.

        To aid the FTC in accomplishing its consumer protection and antitrust missions, the
Office of Inspector General (OIG) was provided five work years and a budget of $917,500 for
fiscal year 2006.

                                    AUDIT ACTIVITIES

        During this semiannual period, the OIG issued an audit of the FTC’s FY 2005 financial
statements and a companion report to management containing financial-related findings and
recommendations resulting from the audit. The OIG also issued a review of performance activity
pursuant to the Government Performance and Results Act. Finally the OIG audited cash
management and claims distribution processes performed by one FTC contractor. In addition to
these completed audits and reviews, the OIG began planning activities for an audit of the FTC’s
purchase card program and the OIG’s annual security review mandated in the Federal
Information Security Management Act. Detailed information regarding these audits and reviews
is provided below.

                                      Completed Audits

Audit Report Number                                  Subject of Audit
      AR 06-069                     Audit of the Federal Trade Commission’s
                                    Financial Statements for the Fiscal Year Ending
                                    September 30, 2005

       AR 06-069A                   Management Letter to the FY 2005 Financial
                                    Statements

       AR 06-070                    Review of FTC Implementation of the Government
                                    Performance and Results Act

       AR 06-071                    Audit of FTC Redress Administration Performed by
                                    Analytics, Inc.




                                             - 1 ­

            Summary of Findings for Reviews Issued During the Current Period

        In AR 06-069, Audit of the Federal Trade Commission’s Financial Statements for the
Fiscal Year Ending September 30, 2005, the objective was to determine whether the agency’s
financial statements present fairly the financial position of the agency. The statements audited
were the Balance Sheets as of September 30, 2005 and 2004 and the related Statements of Net
Cost, Statements of Changes in Net Position, Statements of Budgetary Resources, Statements of
Financing and Statements of Custodial Activity for the years then ended. This was the ninth
consecutive year that the FTC prepared financial statements for audit. The agency received an
unqualified opinion, the highest opinion given by independent auditors.

       The FY 2005 audited statements provide insight into the mission and operations of the
Federal Trade Commission. The FTC had total assets of $259 million and $252 million as of
September 30, 2005 and 2004, respectively. Approximately $132 million and $145 million of
the 2005 and 2004 assets, respectively, were funds collected or to be collected and distributed
through the consumer redress program, under the agency’s Consumer Protection mission.

       Revenue and financing sources received in fiscal years 2005 and 2004 totaled $212 and
$193 million, respectively. Exchange revenue, classified as earned revenue on the financial
statements, was received from three sources; the collection of premerger notification filing fees,
Do-Not-Call (DNC) user fees, and reimbursements received for services provided to other
government agencies. Financing was received through direct appropriations and imputed costs
absorbed by others.

        Exchange revenue totaled $119 million and $98 million for fiscal years 2005 and 2004,
respectively. The primary source of exchange revenue collected, $99 million in fiscal year 2005
and $84 million in fiscal year 2004, was premerger filing fees. The FTC collects a filing fee
from each business entity that files a Notification and Report form transaction, as required by the
Hart-Scott-Rodino (HSR) Anti-Trust Improvement Act. Qualifying mergers with a transaction
amount over $50 million in total assets are charged a filing fee. The fee is based on a three-tiered
structure: $45,000, $125,000, and $280,000, depending upon the combined total of assets of the
merger transaction. The fee is divided equally between the FTC and the Antitrust Division of the
Department of Justice (DOJ). The number of filings increased by 198 over the previous year
with 1,592 recorded in fiscal year 2005. Premerger filing fees represented 47 percent and 43
percent of the total revenue sources to the agency in fiscal years 2005 and 2004, respectively.

        The second largest source of exchange revenue was Do Not Call fees. The FTC collects
fees associated with the implementation and enforcement of the national Do Not Call Registry
sufficient to cover registry costs. The Registry operates under Section 5 of the FTC Act, which
enforces the Telemarketing Sales Rule (TSR). Telemarketers under the FTC’s jurisdiction are
required to pay a user fee and download from the DNC database a list of consumer telephone
numbers on the Registry. Fees are based on the number of area codes downloaded. In fiscal
years 2005 and 2004, respectively, the FTC collected $18 million and $14 million in DNC fees.




                                               - 2 ­

        In addition to exchange revenue, other financing sources were realized through a direct
appropriation from the General Fund of the Treasury, and other non-expenditure transfers, in the
amount of $87 million in fiscal year 2005 and $88 million in fiscal year 2004. Direct
appropriation and transfers represent 41 percent and 46 percent of total funding sources received
for fiscal years 2005 and 2004, respectively.

         The gross cost of operations for 2005 fiscal year was $197 million and represents an
increase of 5.7 percent over the fiscal year 2004 gross cost of operations. During 2005, expenses
for salaries and related benefits totaled $ 124.5 million, or 63 percent of the gross cost of
operations. Rental expense was $17 million, or 8.7 percent, and the remaining $55 million, or 28
percent, included travel, facility maintenance and equipment rental, utilities, imputed benefit
costs, depreciation, and other items. These costs supported 1,019 staff-years employed in
fulfilling the FTC’s missions, a decrease of 38 staff years over the previous fiscal year.

        The statement of Custodial Activity details the monetary results of the agency’s law
enforcement mission. Fighting consumer fraud is one of the FTC’s highest priorities; as
consumers lose billions of dollars every year to perpetrators of traditional fraud and fraud on the
Internet. In fraud cases, the FTC files actions in federal district court to bring an immediate halt
to ongoing business activities and freeze defendants’ assets. The FTC then pursues court orders
that permanently ban the fraudulent activities and provide redress to consumers. In FY 2005 the
agency obtained monetary judgments against defendants in consumer fraud cases totaling $835
million dollars. Collections against judgments are generally returned to the fraud victims.

        During the financial statement audit, the OIG identified deficiencies in internal control
that were not considered reportable conditions (that is, they did not rise to a level of seriousness
to be reported in the auditor’s opinion). Rather, the OIG communicated these findings to
management in a letter (Management Letter to the FY 2005 Financial Statements (AR 06-069A).

        The objective of the management letter is to bring to management’s attention financial
and/or internal control weaknesses and to make recommendations for corrective action. The
audit also follows up on past recommendations made in the prior year’s management letter. For
example, this year’s management letter contains four new findings and the status (follow-up) of
four prior-year findings. One of the new findings contains details of funds put to better use
totaling $82,000 resulting from overcharges of real estate taxes by the General Services
Administration. The agency, with assistance from the OIG, is now working with GSA to obtain
a refund for overpaid taxes.

       In AR 06-070, Review of FTC Implementation of the Government Performance and
Results Act, the objective was to determine whether the FTC reports performance data that (i)
complies with laws and regulations, (ii) effectively aligns with the agency’s vision and annual
performance plan, and (iii) is properly and accurately reported in the agency’s performance and
accountability report.




                                                - 3 ­

        The OIG found that the agency made significant strides in preparing multi-year strategic
plans that convey the general goals of the agency, an annual performance plan (as part of the
performance budget or budget request) which lays out mission objectives and performance
measures, and a performance and accountability report which effectively communicates agency
progress in meeting its objectives. The OIG noted that performance management staff continued
to develop and refine objectives and measures to best present the accomplishments of the agency
in protecting consumers.

        On the other hand, the OIG noted areas where some improvements could be made by
performance staff. For example, performance measures developed by the FTC tended to be
output, rather then outcome, measures. As a result, the performance measures do not fully
demonstrate how the agency is meeting its strategic goals and objectives and how consumers
benefit from the activity being measured. Further, we did not identify a “bridge” that explained
the relationship between output and outcome measures. In addition, the agency is not routinely
performing program evaluations as described in the agency’s strategic plan. These evaluations
are meant to assist staff to better identify how data (complaint totals, internet hits) is being used
to address agency goals and objectives.

        To address these weaknesses, the OIG recommended that the agency ensure that the
evaluation methods for objectives (which are included in the Strategic Plan) are verified, used
and monitored by the agency. The agency should also determine the measures needed/or those
that must be revamped to provide a balance of output, outcome, and effectiveness that properly
support goals and objectives. As a way to tie performance measures back to goals and
objectives, the agency should include accomplishments identified in budget overview statements
in the performance measurement section of the performance report to help explain how the
measure relates to achievement of the objectives.

       In AR 06-071, Audit of FTC Redress Administration Performed by Analytics, Inc., the
OIG responded to a request by Redress Administration Office (RAO) managers to audit claims
administration activities performed on behalf of the FTC by the contractor, Analytics, Inc. of
Chanhassen, MN, for fiscal year 2005. The objectives of the audit were to evaluate financial
controls in place at Analytics over the redress process and to assess the RAO’s oversight of
contractor-administered redress. The audit encompassed eight redress accounts totaling $63.5
million in claims paid by this contractor to 702,725 consumers.

        The audit identified many effective management controls in place at the contractor and at
the RAO to prevent fraud. For example, consumers who attempt to alter check amounts have
been identified by an internal control program called "positive pay." Further, the Analytics’
controller monitors each FTC account daily to identify irregularities and to ensure that sufficient
funds are available to cover all outstanding checks. Analytics has integrated “best practices” to
its redress distribution activities and has improved its oversight of redress distribution with staff
additions. For its part, the RAO approves the transfer and disbursement of all funds on account.
RAO also monitors monthly reports prepared by Analytics detailing account transactions
(deposits, interest earnings, disbursements) for each case, and performs audit checks as a
deterrent to fraud.

                                                 - 4 ­

        The audit also identified areas where improvements are possible. While electronic
monitoring is performed to identify variances, Analytics does not routinely review the resulting
reports. In one example, we found a double payment to a claimant that was “flagged” on an
exception report, but the report was not reviewed by Analytics staff. On another distribution, we
identified one consumer who, due to errors by FTC staff and the contractor, still had not received
her $3,000 redress check months after Analytics closed the account. Analytics should also
negotiate higher interest rates on the tens of millions of dollars in consumer redress on deposit in
commercial banks, thus reducing the amount of principal needed to pay contractor expenses.

         At RAO, the OIG identified processes in place to prevent and/or detect fraud. RAO
simply needs to expand current procedures to audit more checks and should consider computer-
assisted techniques to increase its audit capacity. We also noted that on two of eight sampled
cases, RAO did not maintain complete original claimant lists. Without these lists, contractor
employees could add names to claimant lists and issue checks to themselves or third parties with
little fear of detection, although there was no evidence to suggest that this has occurred.


                                         Planned Audits

Audit Report Number	                                     Subject of Review

   AR06-XXX	                          Review of the Federal Trade Commission
                                      Implementation of the Federal Information Security
                                      Management Act for Fiscal Year 2006 The Federal
                                      Information Security Management Act of 2002 (FISMA)
                                      requires an independent assessment of federal agency
                                      information security programs and practices to determine
                                      their effectiveness. The OIG will evaluate the adequacy of
                                      the FTC’s computer security program and practices for its
                                      major systems. This year, the OIG will again focus its
                                      review on the FTC’s Plan of Action and Milestones to
                                      determine the extent to which the agency has implemented
                                      previously agreed-to OIG and other internally-identified
                                      recommendations. This will enable the OIG to provide
                                      more timely feedback to management on the results of its
                                      efforts to address weaknesses. In addition, the OIG will
                                      visit an FTC regional office to assess information security
                                      there.




                                                - 5 ­

   AR06-XXX	                          Review of the Federal Trade Commission Purchase
                                      Card Program The objective of this audit will be to assess
                                      internal controls over the government purchase card
                                      program. Specific audit objectives will be to (i) document
                                      controls; (ii) determine whether control processes and
                                      procedures are functioning as intended; and (iii) areas that
                                      could be strengthened to better ensure that the goals of the
                                      program are achieved.

   AR06-XXX	                          Audit of the FTC’s Financial Statements for Fiscal Year
                                      2006 The purpose of the audit is to express an opinion on
                                      the financial statements of the Federal Trade Commission
                                      for the fiscal year ending September 30, 2006. The
                                      principal statements to be audited include the (a) Balance
                                      Sheet; (b) Statement of Net Cost; (c) Statement of Changes
                                      in Net Position; (d) Statement of Budgetary Resources; (e)
                                      Statement of Financing; (f) Statement of Custodial Activity,
                                      and notes to the financial statements. The OIG will also test
                                      the internal controls associated with the movement of
                                      transactions through the FTC’s financial system and assess
                                      compliance with selected laws and regulations.

                                      The OIG is using guidance contained in OMB Bulletin No.
                                      01-02, Audit Requirements for Federal Financial
                                      Statements, in performing this audit. The audited financial
                                      statements are required to be included in the financial
                                      section of the agency’s Performance and Accountability
                                      Report to be issued on or before November 15, 2006.


                               INVESTIGATIVE ACTIVITIES

        The Inspector General is authorized by the IG Act to receive and investigate allegations of
fraud, waste and abuse occurring within FTC programs and operations. Matters of possible
wrongdoing are referred to the OIG in the form of allegations or complaints from a variety of
sources, including FTC employees, other government agencies and the general public.

         Reported incidents of possible fraud, waste and abuse can give rise to administrative,
civil or criminal investigations. OIG investigations are also initiated when there is an indication
that firms or individuals are involved in activities intended to improperly affect the outcome of
particular agency enforcement actions. Because this kind of wrongdoing strikes at the integrity
of the FTC's consumer protection and antitrust law enforcement missions, the OIG places a high
priority on these investigations.




                                                - 6 ­

        In conducting criminal investigations during the past several years, the OIG has sought
assistance from, and worked jointly with, other law enforcement agencies, including other OIG’s,
the Federal Bureau of Investigation, the U.S. Postal Inspection Service, the U.S. Secret Service,
the U.S. Marshal’s Service, the Internal Revenue Service, Capitol Hill Police, Federal Protective
Service as well as state agencies and local police departments.

                                     Investigative Summary

        During this reporting period, the OIG received 66 consumer inquiries and reports of
possible wrongdoing.1 Of the 66 complaints, 30 involved issues that fall under the jurisdiction of
FTC program components (identity theft, credit repair, etc.). Consequently, the OIG referred
these matters to the appropriate FTC component for disposition. Another 9 complaints were
referred to other government and/or law enforcement agencies for ultimate disposition.

        Of the remaining complaints, the OIG opened 7 new investigations plus two preliminary
inquiries. Another complaint remained ongoing at the end of the reporting period. Finally, the
OIG closed the 17 remaining complaints without any further action

       Following is a summary of the OIG's investigative activities for the six-month period
ending March 31, 2006:



       1
                The FTC is an independent agency with consumer protection law enforcement
authority. Because the OIG contact information is prominent on the Agency’s web site,
consumers frequently misdirect their consumer protection complaints to the OIG, with the belief
that the OIG’s statutory authority to investigation allegations of fraud, waste and abuse includes
the authority to investigate allegations of consumer fraud. During this semi-annual reporting
period, the OIG received roughly 600 misdirected complaints.

         In prior Semi-Annual Reports to Congress, the OIG has included all consumer complaints
that were misdirected to the OIG (rather than going directly to the FTC’s Consumer Response
Center, the appropriate agency program office for processing consumer protection complaints) in
its consumer inquiries statistical data reported to Congress. Over the past three years, volume of
such misdirected consumer complaints received by the OIG has increased exponentially, in part,
due to website changes that have made the OIG contact information more readily available,
thereby affording consumers easier access to the OIG. Consumers routinely misdirect such
complaints to the OIG because of their unfamiliarity with agency organization and operations.
Beginning in FY 2006, the OIG will no longer include consumer protection complaints that are
ultimately intended for the Consumer Response Center in our reporting of consumer inquiries to
the OIG. Despite this change in reporting statistical data to Congress, our internal processing of
such complaints remains unchanged. The OIG will continue to transmit such consumer
complaints to the appropriate agency program office for review and disposition. However, the
statistical data reported to Congress will not include this subcategory of consumer contacts to the
OIG.

                                               -7­
                            Cases pending as of 9/30/05          6
                              PLUS: New cases                    7

                              LESS: Cases closed                (10)

                            Cases pending as of 3/31/06          3

                                     Investigations Closed

       The OIG closed the following nine investigations during this reporting period:

        The OIG closed a file, opened during a prior reporting period, that resulted in a
prosecution by the Department of Justice during this reporting period. The case involved a
former FTC attorney who retired pending our investigation into allegations that he misused the
FTC’s Federal Express account number. The attorney allegedly operated a business from his
FTC office and misappropriated the agency’s Fed Ex account number in making nearly 200
shipments related to his business over a 14 month period. He plead guilty to felony theft charges
in connection with these activities. At sentencing, he was ordered to pay restitution in the
amount of $4,078 and perform 100 hours of community service. He is on probation for two
years and must satisfy other requirements. The OIG investigated the matter and referred the case
to the District of Columbia United States Attorney for prosecution during a prior fiscal year.

        Our office closed six investigations involving Government-issued travel cards and
purchase cards. Four of the investigations stemmed from employee misuse of travel cards and
the remaining two investigations focused on fraudulent use of Government travel and purchase
cards, as described below. In the four misuse investigations, the affected employees did not deny
personal responsibility for the transactions in question. However, the two fraudulent matters
involved employees who denied any responsibility for the unauthorized transactions. As a result
of these travel card abuse matters, agency management has undertaken diligent efforts to monitor
travel card and purchase card use by agency employees. During this reporting period, the
responsible agency program office initiated a procedure to review transactions appearing on
Government-issued credit card statements.

        The OIG investigated separate allegations that four agency employees had misused their
Government travel credit cards for personal purchases and cash advances. Some of these
investigations arose from agency management’s closer scrutiny into the agency’s travel card
program (following an earlier OIG investigative referral during the preceding reporting period
involving an employee’s travel card misuse). The OIG transmitted separate investigative
referrals to management describing our investigative findings respecting three of the employees.
One of the three employees resigned prior to issuance of the OIG referral to management.
Agency management is in the process of imposing disciplinary action against the two remaining
employees who were the subject of our investigative referrals. While the OIG was preparing a


                                              - 8 ­

fourth investigative referral, the subject employee resigned from the agency. The OIG closed the
four investigative files.

        The OIG closed an investigation that was opened in a prior reporting period relating to
allegations of Government travel card fraud. Several FTC employees, including a former FTC
commissioner, were the victims of the unauthorized use of their travel cards. Some credit card
transactions were declined, but some were processed and completed. Our investigation did not
lead to conclusive information respecting the identity of the individual(s) responsible for the
fraudulent use of the travel cards. The investigation was closed with no investigative referral to
agency management.

        In a separate, yet similar, investigation that was opened in a prior reporting period, the
OIG closed its investigation into allegations of Government purchase card fraud involving an
agency employee’s purchase card. The OIG investigation determined that the purchase card at
issue was never lost or stolen. However, unauthorized charges were made using the purchase
card account number. The OIG investigation did not determine the identity of the individual(s)
responsible for the unauthorized charges. The investigation was closed with no investigative
referral to agency management. The agency suffered no loss as a result of the purchase card
fraud.

        The OIG received information that an agency employee had inserted an informational
code into the FTC’s website that generated a popunder advertisement each time the website page
to which the script was linked was accessed by visitors. The agency employee allegedly received
nominal payments from the host of the popunder advertisements. Forensic analysis identified
one individual who inserted the unauthorized code out of seven possible agency employees with
access to the website java script. The OIG issued subpoenas to obtain information that linked the
employee to the unauthorized code. The employee resigned his position during our investigation
and the OIG ceased further investigative activity on the matter.

         The OIG closed another investigation, opened in a prior reporting period, involving
allegations that a company falsely represented to consumers that it was an affiliate of the FTC.
The company’s telemarketer convinced at least one consumer, who was previously a victim of
identity theft, that the consumer should provide personal financial information to ensure that the
consumer would be protected from future identity theft. The consumer provided the account
number and someone withdrew several hundred dollars from his bank account. When the OIG
first received the allegation, the OIG opened an investigation and issued subpoenas to pursue
FTC impersonation allegations. During the pendency of our investigation, the agency’s program
office that is responsible for consumer fraud investigations requested that the OIG refrain from
investigating the allegations because that office had an ongoing widespread investigation
involving criminal law enforcement in multiple jurisdictions. To avoid duplication of efforts and
the possibility of interfering with the agency’s existing investigation, the OIG referred the matter
to that program office for further investigation.


                                                - 9 ­

        The OIG closed an investigation, opened during a prior reporting period, involving
allegations that an agency employee conspired with his mother to defraud a state housing
authority. The allegation was referred to the OIG by the state district attorney’s office that
prosecuted the employee’s mother in the housing fraud scheme. Although the employee’s
mother was indicted and plead to felony housing fraud counts, the OIG investigation uncovered
insufficient facts to support a conspiracy charge against the FTC employee. Based on the
foregoing, OIG closed its investigative file.

                                Matters Referred for Prosecution

        During this reporting period the OIG referred no new cases to the Department of Justice
for prosecution.

         The Department of Justice prosecuted a former FTC attorney during this reporting period.
That individual plead guilty to felony theft counts for his misuse of the agency’s Federal Express
account number. The sentencing included a requirement that the former employee make
restitution to the FTC and Federal Express for the value of the unauthorized shipments. This
prosecution resulted from an investigation by the OIG during the preceding fiscal year. The
conviction was reported to the attorney’s licensing board for appropriate disciplinary action.


                                      OTHER ACTIVITIES

                                      Management Advisory

        The OIG issued a Management Advisory addressing the sufficiency of ethics training for
agency employees serving as Contract Officer’s Technical Representatives (COTRs). The
advisory followed an investigation completed in a prior fiscal year wherein the OIG learned that
FTC employees who are called upon to serve as COTRs were not adequately trained in the
ethical rules governing performance of their duties, particularly the rules relating to conflicts of
interest and the acceptance of gifts from an entity doing business with the agency. The OIG
advised management of this situation. The OIG, agency Ethics Office and Financial
Management Office collaborated to revise the COTR Appointment Memorandum and the FTC
COTR Training Course to address this issue.

                               Significant Management Decisions

        Section 5(a)(12) of the Inspector General Act requires that if the IG disagrees with any
significant management decision, such disagreement must be reported in the semiannual report.
Further, Section 5(a)(11) of the Act requires that any decision by management to change its
response to a significant resolved audit finding must also be disclosed in the semiannual report.
For this reporting period there were no significant final management decisions made on which the
IG disagreed and management did not revise any earlier decision on an OIG audit recommendation.

                                                - 10 ­

                                       Access to Information

        The IG is to be provided with ready access to all agency records, information, or assistance
when conducting an investigation or audit. Section 6(b)(2) of the IG Act requires the IG to report
to the agency head, without delay, if the IG believes that access to required information, records or
assistance has been unreasonably refused, or otherwise has not been provided. A summary of
each report submitted to the agency head in compliance with Section 6(b)(2) must be provided in
the semiannual report in accordance with Section 5(a)(5) of the Act.

        During this reporting period, the OIG did not encounter any problems in obtaining
assistance or access to agency records. Consequently, no report was issued by the IG to the
agency head in accordance with Section 6(b)(2) of the IG Act.

                                         Audit Resolution

        As of the end of this reporting period, all OIG audit recommendations for reports issued in
prior periods have been resolved. That is, management and the OIG have reached agreement on
what actions need to be taken.

                                      Review of Legislation

        Section 4(a)(2) of the IG Act authorizes the IG to review and comment on proposed
legislation or regulations relating to the agency or, upon request, affecting the operations of the
OIG. During this reporting period, the OIG reviewed no legislation.

                           Contacting the Office of Inspector General

        Employees and the public are encouraged to contact the OIG regarding any incidents of
possible fraud, waste, or abuse occurring within FTC programs and operations. The OIG
telephone number is (202) 326-2800. To report suspected wrongdoing, employees may also call
the OIG's investigator directly on (202) 326-2618. A confidential or anonymous message can be
left 24 hours a day. Complaints or allegations of fraud, waste or abuse can also be emailed
directly to chogue@ftc.gov. OIG mail should be addressed to:

                                      Federal Trade Commission
                                      Office of Inspector General
                                      Room NJ-1110
                                      600 Pennsylvania Avenue, NW
                                      Washington, D.C. 20580




                                                - 11 ­

        OIG reports can be obtained directly from the internet at: www.ftc.gov/oig. A visitor to
the OIG home page can download recent (1996-2005) OIG semiannual reports to Congress, the
FY 1998 - 2004 financial statement audits, and other program and performance audits issued
beginning in FY 1999. A list of audit reports issued prior to FY 1999 can also be ordered via an
e-mail link to the OIG. In addition to this information resource about the OIG, visitors are also
provided a link to other federal organizations and Offices of Inspector General.

                                         Internet Access

        The OIG can be accessed via the world wide web at: http://www.ftc.gov/oig. A visitor to
the OIG home page can download recent (1996-2005) OIG semiannual reports to Congress, the
FY 1998 - 2005 financial statement audits and other program and performance audits issued
beginning in FY 1999. A list of audit reports issued prior to FY 1999 can also be ordered via an
e-mail link to the OIG. In addition to this information resource about the OIG, visitors are also
provided a link to other federal organizations and office of inspectors general.




                                              - 12 ­

                              TABLE I
                   SUMMARY OF INSPECTOR GENERAL
                      REPORTING REQUIREMENTS

   IG Act
 Reference                   Reporting Requirement                           Page(s)

Section 4(a)(2)    Review of legislation and regulations                        11

Section 5(a)(l)    Significant problems, abuses and deficiencies                4-5

Section 5(a)(2)    Recommendations with respect to significant
                   problems, abuses and deficiencies                            5

Section 5(a)(3)    Prior significant recommendations on which
                   corrective actions have not been made                        11

Section 5(a)(4)    Matters referred to prosecutive authorities                  10

Section 5(a)(5)    Summary of instances where information was refused           11

Section 5(a)(6)    List of audit reports by subject matter, showing dollar
                   value of questioned costs and funds put to better use        14, 15

Section 5(a)(7)    Summary of each particularly significant report              2-4

Section 5(a)(8)    Statistical tables showing number of reports and
                   dollar value of questioned costs                             14

Section 5(a)(9)    Statistical tables showing number of reports and dollar
                   value of recommendations that funds be put to better use     15

Section 5(a)(10)   Summary of each audit issued before this reporting
                   period for which no management decision was made
                   by the end of the reporting period                           14, 15

Section 5(a)(11)   Significant revised management decisions                     10

Section 5(a)(12)   Significant management decisions with which
                   the inspector general disagrees                              10




                                           - 13 ­

                               TABLE II

                   INSPECTOR GENERAL ISSUED REPORTS

                        WITH QUESTIONED COSTS




                                                 Number          Dollar Value


                                                            Questioned   Unsupported

                                                              Costs        Costs 





A.	 For which no management decision has
    been made by the commencement of the
    reporting period                                    0         0        (    0   ]

B.	 Which were issued during the reporting
    period                                              0         0        (    0   ]

      Subtotals (A + B)                                 0         0        (    0   ]

C.	   For which a management decision was
      made during the reporting period                  0         0        (    0   ]

      (I) dollar value of disallow ed costs             0         0        (    0   ]

      (ii) dollar value of cost not disallowed          0         0        (    0   ]

D.	   For which no management decision was
      made by the end of the reporting period           0         0        (    0   ]


      Reports for which no management
      decision was made within six months of
      issuance                                          0         0        (    0   ]




                                              - 14 ­

                                         TABLE III

          INSPECTOR GENERAL ISSUED REPORTS
 WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                         Number   Dollar Value
A.	    For which no management decision has been made
       by the commencement of the reporting period          0           0


B	     Which were issued during this reporting period       1        82,000


C.	    For which a management decision was made during
       the reporting period                                 1        82,000

       (i) dollar value of recommendations that were
       agreed to by management                              1        82,000

       - based on proposed management action                1	       82,000

       - based on proposed legislative action               0	          0

       (ii) dollar value of recommendations that were
       not agreed to by management                          0           0


D. 	   For which no management decision has been made
       by the end of the reporting period                   0           0

       Reports for which no management decision was
       made within six months of issuance                   0           0




                                             - 15 ­

